OFFICE OF THE ATTORNEY GENERAL
KWAME RAOUL

STATE OF ILLINOIS

ATTORNEY GENERAL

March 30, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

Harris v. Illinois, No. 20-7291

Dear Mr. Harris:
This letter is sent as a request by respondent, the State of Illinois, for a 30day extension of time to file its brief in opposition (BIO) to the above-captioned
petition for a writ of certiorari, to and including May 19, 2021. The BIO is currently
due April 19, 2021, respondent has sought no prior extensions of time, and
petitioner’s counsel has no objection to this request.
I request this extension because Assistant Attorney General (AAG) Erin
O’Connell, who has been assigned to represent the State in this matter, did not
handle the appeal below, and will require additional time to review the record and
research the legal issue presented. Additionally, after AAG O’Connell completes a
draft of the response, several supervisors in our office will need to review it.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

This motion is not made for the purpose of delay, but to ensure that
respondent’s interests are fully protected. Thank you for your attention to this
matter.
Sincerely,

Michael M. Glick
Criminal Appeals Division Chief
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(312) 590-7814
cc:

Ellen J. Curry
Office of the State Appellate Defender
909 Water Tower Circle
Mt. Vernon, Illinois 62864
ellen.curry@osad.state.il.us

